TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Indian Tribal Governments Office
                       Has Developed an Effective Customer
                           Satisfaction Survey Process



                                          August 24 2007

                              Reference Number: 2007-10-135




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 24, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Indian Tribal Governments Office Has
                             Developed an Effective Customer Satisfaction Survey Process
                             (Audit # 200610051)

 This report presents the results of our review of the Indian Tribal Governments (ITG) office
 customer satisfaction survey process. The overall objectives of this review were to determine
 whether the ITG office’s customer satisfaction survey process produced valid and useful results
 to measure customer satisfaction and whether office management used the data effectively to
 respond to customer concerns. The Director, Government Entities, requested that the Treasury
 Inspector General for Tax Administration review the ITG office customer satisfaction
 measurement and improvement process to determine whether management had developed an
 effective survey process. This audit was conducted as part of the Treasury Inspector General for
 Tax Administration Office of Audit Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Customer satisfaction is an integral part of the Internal Revenue Service’s (IRS) mission of
 providing American taxpayers with top-quality service. ITG office management accurately
 captured, analyzed, and interpreted customer feedback and took appropriate actions to improve
 customer service in response to the survey responses. More importantly, based on the responses
 to the customer satisfaction survey, ITG office customers have indicated an overall increase in
 satisfaction with the products and services provided by the office.
                        The Indian Tribal Governments Office Has Developed an
                            Effective Customer Satisfaction Survey Process




Synopsis
The ITG office administers Federal tax laws for the 562 Federally recognized Indian tribes and
their approximately 2,500 related entities. In Fiscal Year 2001, it began developing a customer
satisfaction process as part of the IRS’ Balanced Measurement System.1 The first customer
satisfaction survey was performed in Fiscal Year 2003, and the ITG office has conducted surveys
each fiscal year thereafter.
The ITG office’s customer satisfaction survey process is consistent with applicable guidelines.
For example, the IRS must obtain approval from the Office of Management and Budget before
soliciting customer satisfaction information from taxpayers. The ITG office submits its customer
satisfaction survey implementation plans to the Office of Management and Budget, which has
granted approval every year since Fiscal Year 2003.
In addition, customer satisfaction survey results are valid and useful. For example, survey
questions are consistent with the services provided by the ITG office, and survey results are
accurately transcribed by the office. In addition, management responds to customer satisfaction
feedback data. They rank the customer satisfaction survey results to prioritize customer concerns
and to identify actions needed to address these concerns. Examples of actions taken to address
customer satisfaction concerns include redesigning the ITG office Internet site and developing
publications. As a result, customer satisfaction scores are rising as office management collects
and acts upon valuable survey information.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




1
  This System is used to measure the performance of each IRS organization. Customer satisfaction is one of the
three components of the System; it is intended to ensure customer satisfaction issues and needs are considered and
addressed in organizational planning, budgeting, and review activities.
                                                                                                                     2
                            The Indian Tribal Governments Office Has Developed an
                                Effective Customer Satisfaction Survey Process




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Customer Satisfaction Scores Are Rising As Management Collects and
          Acts Upon Valuable Customer Satisfaction Survey Information .................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
      The Indian Tribal Governments Office Has Developed an
          Effective Customer Satisfaction Survey Process




                  Abbreviations

IRS         Internal Revenue Service
ITG         Indian Tribal Governments
                        The Indian Tribal Governments Office Has Developed an
                            Effective Customer Satisfaction Survey Process




                                            Background

The Office of Indian Tribal Governments (ITG) was established as part of the Internal Revenue
Service (IRS) Tax Exempt and Government Entities Division in Fiscal Year 2000. The
ITG office administers Federal tax laws for the 562 Federally recognized Indian tribes and their
approximately 2,500 related entities. Its mission is to provide customers with top-quality
services by helping them understand and comply with applicable tax laws and to protect the
public interest by applying the tax law with integrity and fairness to all. In addition, the
ITG office must ensure the IRS complies with the treaty provisions that establish rights of tribal
governments (tribes) and Executive Order 13175 (dated November 6, 2000),1 which outlines
Government-to-Government relationships.
The ITG office began developing a customer satisfaction process in Fiscal Year 2001 as part of
the IRS’ Balanced Measurement System, which is used to measure the performance of each IRS
organization. Customer satisfaction is one of the three components of this System; it is intended
to ensure customer satisfaction issues and needs are considered
and addressed in organizational planning, budgeting, and review
                                                                      Customer satisfaction is
activities. IRS organizations should include specific strategies       an integral part of the
and initiatives aimed at improving customer satisfaction in their          IRS’ mission of
strategic and operational plans. While other offices within the         providing American
IRS use an outside vendor, the ITG office uses                             taxpayers with
office employees to administer and interpret the results of its         top-quality service.
customer satisfaction survey. These employees have the
necessary skills to administer the survey, and the Tax Exempt and
Government Entities Division office did not have the funding to hire an outside vendor.2 The
ITG office performed the first customer satisfaction survey in Fiscal Year 2003 and has
conducted surveys each fiscal year thereafter. The Director, Government Entities, requested that
we review the ITG office customer satisfaction measurement and improvement process to
determine whether office employees had developed an effective survey process.
Survey questions are based on the following five components the ITG office uses to measure
customer satisfaction:




1
  Consultation and Coordination With Indian Tribal Governments, Exec. Order No. 13175, 3 C.F.R. Section 304
(2001), reprinted in 25 U.S.C. Section 450 (2001).
2
  The annual cost to administer the survey process ranges from $7,800 to $8,500 compared with the initial estimate
of $55,000 for an outside vendor.
                                                                                                            Page 1
                    The Indian Tribal Governments Office Has Developed an
                        Effective Customer Satisfaction Survey Process



   •   Taxpayer Burden and Delivery of Information assesses the office’s actions to help its
       customers understand and comply with applicable laws. This component was identified
       as the primary concern of tribal governments.
   •   Collaboration assesses the office’s actions aimed at preventing noncompliance by tribes.
   •   Recognition assesses the office’s actions to build mutually respectful relationships and
       cooperation between the office and the tribes.
   •   Equitable Treatment and Protocol provides feedback about the office’s behavior
       toward tribal culture and customs.
   •   Accuracy, Timeliness, and Honesty assesses the office’s responses to the tribes’
       questions about Federal tax issues.
This review was performed at the office of the Director, ITG, in Denver, Colorado, and the
Compliance and Program Management office in Buffalo, New York, during the period
November 2006 through May 2007. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                                 The Indian Tribal Governments Office Has Developed an
                                     Effective Customer Satisfaction Survey Process




                                             Results of Review

Customer Satisfaction Scores Are Rising As Management Collects
and Acts Upon Valuable Customer Satisfaction Survey Information
ITG office management designs and distributes customer satisfaction surveys to their customers
and accurately captures, analyzes, and interprets customers’ response data. The methodology for
measuring and interpreting customer satisfaction survey results is consistent with industry
standards. In addition, ITG office management takes appropriate actions in response to customer
satisfaction survey results and incorporates customer satisfaction survey data to help improve
strategic and operational plans.
More importantly, based on the responses to the customer satisfaction survey, ITG office
customers have indicated an overall increase in satisfaction with the products and services
provided by the office. Figure 1 shows the overall satisfaction for Fiscal Years 2003 through
2006.
         Figure 1: Percentage of Customers Indicating Overall Satisfaction
                         (Fiscal Years 2003 Through 2006)

                         78.0%                                                                    76.6%
                         76.0%
                                                       73.3%                 71.5%
                         74.0%

                         72.0%
            Percentage




                         70.0%
                                     66.0%
                         68.0%
                         66.0%

                         64.0%
                         62.0%
                         60.0%
                                      2003              2004                 2005                 2006
                                                               Fiscal Year

                                               Percentage Satisfied          Satisfaction Trend

         Source: Analysis of customer satisfaction survey of ITG office reports.

                                                                                                          Page 3
                        The Indian Tribal Governments Office Has Developed an
                            Effective Customer Satisfaction Survey Process



The customer satisfaction survey process is consistent with guidelines
IRS guidelines require each office to use a customer satisfaction survey to capture and measure
customer satisfaction feedback. The survey should be sent to a statistically valid sample of
customers served by each office; feedback data must be included in strategic and organizational
plans and made available to the respective customers. In Fiscal Year 2003, ITG office
management began mailing a paper survey to their entire customer base and preparing an annual
customer satisfaction survey report. This report is attached to strategic and organizational plans
on the ITG office Internet site. Office management also includes customer satisfaction survey
results in the quarterly newsletters provided to customers.
Each year, the IRS must also obtain approval from the Office of Management and Budget before
soliciting customer satisfaction information from taxpayers. The ITG office submits its customer
satisfaction survey implementation plans to the Office of Management and Budget, which has
granted approval every year since Fiscal Year 2003. The implementation plans include the
customer satisfaction survey questions, methodology, and cost to administer the survey.

Customer satisfaction survey results are valid and useful
The ITG office customer satisfaction survey process produces valid and useful3 results to
measure customer satisfaction. Survey questions are consistent with the services provided by the
ITG office, and survey results are accurately transcribed by the office. Our judgmental sample
of 30 (5 percent) of 553 survey documents showed a 97 percent accuracy rate by the ITG office
in recording customer responses. To highlight different customer service trends, office
management provides different analyses in the annual Customer Satisfaction Survey Report.
Information in these analyses can be traced to either actual customer responses to survey
questions or to the number of customers who participated in the survey.
The survey questions remained basically the same over the past several fiscal years. In the
4 fiscal years that the ITG office conducted the survey, only 3 (11 percent) of the 28 questions
have changed. For instance, in the Fiscal Year 2006 survey, one question changed to “ITG has
specific tax publications that meet tribal information needs” from “Tax materials like Forms and
Publications are easy to understand.” ITG office management changes survey questions to focus
on the specific services and products provided by the office. Because the questions have
primarily stayed the same, ITG office management is able to rank the results for the survey
questions and compare them each fiscal year.
The number of customers participating in the ITG office customer satisfaction survey and the
number of responses to each question are sufficient for management to form conclusions about
customer satisfaction. The ITG office also took, or plans to take, actions to increase customer
participation in the survey process. For example, prior to mailing the actual customer

3
  The term “valid” is defined as the accuracy of transcribing survey responses by the ITG office. The term “useful”
is defined as sufficient or adequate for analysis to identify trends in customer satisfaction.
                                                                                                            Page 4
                     The Indian Tribal Governments Office Has Developed an
                         Effective Customer Satisfaction Survey Process



satisfaction survey, the Director, ITG, sends a letter requesting customer participation and
indicates the importance of the survey process. In addition, during regular customer contacts
made outside of the customer satisfaction survey process, office employees inquire whether
customers received the survey.

Management responds to customer satisfaction feedback data
ITG office management ranks the customer satisfaction survey results to prioritize customer
concerns and to identify actions needed to address these concerns. Actions are taken based on
the feasibility of the corrective action and the resources needed to address the concern. To keep
the tribes informed about survey results and actions taken, management includes the prior fiscal
year customer satisfaction survey results in the ITG office newsletter and sends a letter to tribal
governments.
While some customer concerns are similar from year to year and some actions take multiple
years to complete, management has taken action or plans to take additional action to address the
primary concerns identified by their customers. Figure 2 shows the areas of concern identified
by the customer satisfaction survey for Fiscal Years 2003 through 2006, examples of actions the
ITG office has taken to address the concerns, and the current status of the concerns.
      Figure 2: Examples of Actions Taken to Address Customer Satisfaction
                   Concerns (Fiscal Years 2003 Through 2006)

                                  Actions Taken by
Concerns Identified by            ITG Office Management to
Indian Tribes                     Address Concerns                  Status
The IRS Internet site was not     Management responded by           The customer satisfaction
user friendly.                    redesigning the ITG office        rating has improved.
                                  Internet site.
The ITG office was not            Management responded by          The customer satisfaction
providing specific publications   developing publications such     rating has improved.
to meet tribal information        as Gaming Tax Law and Bank
needs.                            Secrecy Act Issues for Indian
                                  Tribal Governments
                                  (Publication 3908), Indian
                                  Tribal Governments
                                  (Publication 3747), and
                                  Employment Tax Desk Guide
                                  for Indian Tribal Governments
                                  (Publication 4268). These
                                  Publications have been added
                                  to the ITG office Internet site.

                                                                                             Page 5
                      The Indian Tribal Governments Office Has Developed an
                          Effective Customer Satisfaction Survey Process



                                    Actions Taken by
Concerns Identified by              ITG Office Management to
Indian Tribes                       Address Concerns                Status
The ITG office was not              Management responded by         The customer satisfaction
providing sufficient assistance     developing the Helpful Hints    rating has improved.
in helping tribes to avoid          to Avoid Penalties document
penalties.                          and including it on the ITG
                                    office Internet site.
The ITG office did not explain Management developed a tax           Management plans additional
filing requirements to tribal  guide for individual tribal          actions to improve customer
members.                       member issues and plans to           satisfaction.
                               include it on the ITG office
                               Internet site.
The ITG office did not explain      Management created a Recent     Management is awaiting
how tax law changes would           Developments page on the        future customer satisfaction
affect tribes and clarify tax       ITG office Internet site that   ratings to determine if actions
issues that are unique to tribes.   will include current            taken have led to improved
                                    information that may affect     satisfaction.
                                    tax issues for tribes.




                                                                                             Page 6
                            The Indian Tribal Governments Office Has Developed an
                                Effective Customer Satisfaction Survey Process



                                            Actions Taken by
 Concerns Identified by                     ITG Office Management to
 Indian Tribes                              Address Concerns                         Status
 ITG office specialists were                Management has included                  Management is awaiting
 difficult to contact.                      contact information for the              future customer satisfaction
                                            ITG office specialist and                ratings to determine if actions
                                            manager assigned to the                  taken have led to improved
                                            respective tribal government             satisfaction.
                                            on the office Internet site. If
                                            the specialist and the manager
                                            are not available, the Internet
                                            site provides the
                                            ITG Headquarters office
                                            number and advises that
                                            someone will call back within
                                            24 hours. In addition, a pager
                                            was given to one ITG office
                                            specialist to provide a toll-free
                                            way for Alaskan tribes to
                                            contact the specialist.
 The ITG office did not respect             Management plans to provide              After the statement is issued
 the sovereignty4 of tribal                 a statement about its tribal             and training is completed,
 governments and keep tribes                sovereignty policy and                   management intends to
 informed about actions taken               additional training to its               determine if the customer
 to resolve issues.                         employees.                               satisfaction ratings improved.
Source: Analysis of customer satisfaction survey reports and actions taken to address Indian tribe concerns.




 4
     Sovereignty refers to Indian tribes’ rights to exercise complete political power over tribes.




                                                                                                               Page 7
                    The Indian Tribal Governments Office Has Developed an
                        Effective Customer Satisfaction Survey Process



                                                                                 Appendix I

       Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the ITG office’s customer satisfaction survey
process produced valid and useful results to measure customer satisfaction and whether office
management used the survey data effectively to respond to customer concerns. To accomplish
our objectives, we:
I.     Determined whether the ITG office customer satisfaction survey process was consistent
       with established guidelines.
       A. Obtained and reviewed IRS guidelines for developing and using the customer
          satisfaction survey process.
       B. Obtained and reviewed ITG office guidelines for developing and using the customer
          survey satisfaction process.
       C. Compared the methodology the office used to create the customer satisfaction survey
          to established guidelines.
II.    Determined whether the customer satisfaction survey process developed by the
       ITG office produced valid results to measure customer satisfaction.
       A. Determined whether survey questions were consistent with services provided by the
          office.
       B. Evaluated the accuracy of customer satisfaction survey results recorded by the office
          by selecting a judgmental sample of 30 source documents from a total of 553 survey
          documents received in Fiscal Years 2004 through 2006. Ten documents were
          randomly selected from each Fiscal Year’s population. We used judgmental
          sampling because we were not going to project the results to the entire population.
III.   Determined whether the customer satisfaction survey process developed by the
       ITG office produced useful results to measure customer satisfaction.
       A. Interviewed office management and reviewed relevant documentation to determine
          how customer satisfaction survey results were measured and interpreted.
       B. Determined whether customer participation was sufficient to form conclusions about
          customer satisfaction.




                                                                                         Page 8
                    The Indian Tribal Governments Office Has Developed an
                        Effective Customer Satisfaction Survey Process



IV.    Determined whether ITG office management used customer satisfaction survey data
       effectively to respond to customer concerns.
       A. Interviewed office management and reviewed relevant documentation to determine
          how customer satisfaction survey results were used.
       B. Analyzed customer satisfaction survey results from Fiscal Years 2003 through 2006
          to determine whether the responses to similar survey questions had changed or
          remained the same.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. The following internal controls
were relevant to our audit objectives: the ITG office’s policies, procedures, and practices for
planning and implementing its customer satisfaction survey process. We reviewed these controls
by interviewing office management, analyzing applicable project documentation, and analyzing
survey data and did not identify any significant material weaknesses.




                                                                                        Page 9
                   The Indian Tribal Governments Office Has Developed an
                       Effective Customer Satisfaction Survey Process



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Gerald T. Hawkins, Acting Director
Julia M. Collins, Acting Audit Manager
Deadra M. English, Lead Auditor
Stephanie K. Foster, Senior Auditor
Donald J. Martineau, Auditor




                                                                                    Page 10
                   The Indian Tribal Governments Office Has Developed an
                       Effective Customer Satisfaction Survey Process



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 11
